UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7138
DON FARMER,
Petitioner - Appellant,
v.
BERNARD BOOKER, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. John A. Gibney, Jr., District Judge. (3:18-cv-00715-JAG-RCY)
Submitted: January 21, 2020

Decided: January 27, 2020

Before GREGORY, Chief Judge, NIEMEYER and KING, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Don Farmer, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Don Farmer appeals the district court’s order denying as untimely his 28 U.S.C.
§ 2254 (2018) petition. On appeal—we-eon|me our review to the issues raised in the
Appellant’s

ief. See 4th Cir. R. 34(b). Because Farmer’s informal brief does not

challenge the basis~for--the district-court’s disposition, Farmer has forfeited appellate review
of the court’s order. See Jackson v. Lightsey, 775 F.3d 170, 177 (4th Cir. 2014) (“The
informal brief is an important document; under Fourth Circuit rules, our review is limited
to issues preserved in that brief.”). Accordingly, we grant leave to proceed in forma
pauperis and affirm the district court’s judgment. We also deny as unnecessary a certificate
of appealability. See Harbison v. Bell, 556 U.S. 180, 183 (2009). We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process,
_.r-

AFFIRMED

2

Case 3:18-cv-00715-JAG-RCY Document 14 Filed 07/23/19 Page 1 of 1 PagelD# 140

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division

L 1
JUL 2 3 2019
CLERK, u!s."blSrRICT COUKr
RICHMOND. VA

DON FARMER,
Petitioner,

Civil Action No. 3:18CV715

v.

BERNARD BOOKER,
Respondent.
FINAL ORDER
In accordance with the accompanying Memorandum Opinion, it is hereby ordered that:
1.
2.
3.
4.

Respondent’s Motion to Dismiss (ECF No. 7) is GRANTED;
The § 2254 Petition (ECF No. 1) is DENIED;
A certificate of appealability is DENIED; and,
The action is DISMISSED.

Should Farmer desire to appeal, a written notice of appeal must be filed with the Clerk of
the Court within thirty (30) days of the date of entry hereof. Failure to file a written notice of
appeal may result in the loss of the ability to appeal.
The Clerk of the Court is DIRECTED to send a copy of this Final Order and the
accompanying Memorandum Opinion to Farmer and counsel for Respondent.
It is so ORDERED.

Date:

(

Richmond, Vi giniaj

Isl
John A. Gibnev, Jr-// /
United States Distrtct Judge

Case 3:18-cv-00715-JAG-RCY Document 13 Filed 07/23/19 Page 1 of 5 PagelD# 135

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
DON FARMER,

XQ
ML 2 3 2019
CLERK, us. tflSTMCT COURT
r '>n

Petitioner,
Civil Action No. 3:18CV715

v.

BERNARD BOOKER,
Respondent.
MEMORANDUM OPINION
Don Farmer, a Virginia state prisoner proceeding pro se, brings this petition pursuant to 28
U.S.C. § 2254 (“§ 2254 Petition,” ECF No. 1), challenging his convictions in the Circuit Court of
the City of Richmond, Virginia (hereinafter, “Circuit Court”). Respondent moves to dismiss on
the ground that the one-year statute of limitations governing federal habeas petitions bars the
§ 2254 Petition. Fanner has responded. For the reasons set forth below, the Motion to Dismiss
(ECF No. 7) will be GRANTED.
I. PROCEDURAL HISTORY
In 1988, Lorenzo Williams was convicted of “the 1987 murder of Eathel Fraenzel (‘the
grandmother’), rape of P.F., and statutory burglary and robbery of P.F. or the grandmother or
both.” Farmer v. Commonwealth, Til S.E.2d 32,34 (Va. Ct. App. 2013). Williams’s “accomplice
remained at large until Farmer was identified through DNA evidence in 2010.” Id.
Thereafter, Farmer also was convicted of murder, rape, statutory burglary, and robbery in the
Circuit Court. Id. Farmer appealed. On January 29, 2013, the Court of Appeals of Virginia
affirmed his conviction. Id. On July 19, 2013, the Supreme Court of Virginia refused Farmer’s
petition for appeal. Farmer v. Commonwealth, No. 130379 (Va. July 19, 2013).

Case 3:18-cv-00715-JAG-RCY Document 13 Filed 07/23/19 Page 2 of 5 PagelD# 136

On June 26, 2014, Farmer, with counsel, filed a petition for a writ of habeas corpus in the
Circuit Court. Petition for a Writ of Habeas Corpus 1, Farmer v. Barksdale, No. CL14-2586 (Va.
Cir. Ct. filed June 26,2014). In that petition, Farmer claimed that he was entitled to relief because
he was denied the effective assistance of counsel. Id. at 5. Specifically, Farmer asserted that his
trial counsel failed to inform him of a plea offer made by the prosecution after trial, but before
sentencing. Id. at 4-5. On November 21, 2017, the Circuit Court denied Farmer’s petition for a
writ of habeas corpus. Farmer v. Barksdale, No. CL14-2586, at 23-24 (Va. Cir. Ct. Nov. 21,
2017).
On April 19, 2018, Farmer filed an untimely notice of appeal with the Circuit Court and
requested an extension of time with respect to his untimely appeal. Notice of Appeal 1, Farmer v.
Barksdale, No. CL14-2586 (Va. Cir. Ct. filed April 19,2018); Letter 1, Farmer v. Barksdale, No.
CL14-2586 (Va. Cir. Ct. filed April 19, 2018). On May 1, 2018, the Supreme Court of Virginia
denied Farmer’s request for an extension of time. Farmer v. Barksdale, (Va. May 1,2018). On
July 10, 2018, Farmer filed a Motion for an Extension of Time to Appeal with the Supreme Court
of Virginia. Motion for Extension of Time 1, Farmer v. Barksdale, (Va. filed July 10,2018). The
Supreme Court of Virginia took no action on that motion.
On October 12, 2018, Farmer filed his § 2254 Petition with this Court.1 In his § 2254
Petition, Farmer contends that he is entitled to relief upon the following grounds:2
Claim One

Farmer’s indictments should have been quashed because the prosecutor had
previously maintained that another individual committed the
crimes. (§ 2254 Pet. 23.)

1 This is the date that Farmer states that his § 2254 Petition was deposited in the prison
mailing system (see § 2254 Pet. 71 (as paginated by CM/ECF)), and the Court deems this as the
date the § 2254 Petition was filed. See Houston v. Lack, 487 U.S. 266, 276 (1988).
2 The Court employs the pagination assigned by CM/ECF for all citations to Farmer’s
filings. The Court corrects the capitalization from Farmer’s submissions.
2

Case 3:18-cv-00715-JAG-RCY Document 13 Filed 07/23/19 Page 3 of 5 PagelD# 137

Claim Two

“The Due Process Clause prohibits prosecuting Farmer and Williams under
inconsistent theories of who committed the rape.” {Id. at 24.)

Claim Three Insufficient evidence existed to convict Farmer of any crime. {Id. at 26.)
Claim Four

Farmer failed to receive the effective assistance of counsel because trial
counsel failed to inform Farmer of a plea offer made by the prosecution
prior to sentencing. {Id. at 42.)
II. ANALYSIS

A.

Statute of Limitations

Respondent contends that the federal statute of limitations bars Fanner’s claims. Section
101 of the Antiterrorism and Effective Death Penalty Act (“AEDPA”) amended 28 U.S.C. § 2244
to establish a one-year period of limitation for the filing of a petition for a writ of habeas corpus
by a person in custody pursuant to the judgment of a state court. Specifically, 28 U.S.C. § 2244(d)
now reads:
1.

2.

A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation period shall run from the latest of—
(A)
the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B)
the date on which the impediment to filing an application
created by State action in violation of the Constitution or
laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C)
the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D)
the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise
of due diligence.
The time during which a properly filed application for State post-conviction
or other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted toward any period of limitation under this
subsection.

28 U.S.C. § 2244(d).
3

Case 3:18-cv-00715-JAG-RCY Document 13 Filed 07/23/19 Page 4 of 5 PagelD# 138

B.

Commencement and Running of the Statute of Limitations

Under 28 U.S.C. § 2244(d)(1)(A), Farmer’s convictions became final on Thursday,
October 17,2013, when the time for Farmer to file a petition for a writ of certiorari expired. See
Hill v. Braxton, 277 F.3d 701, 704 (4th Cir. 2002) (“[T]he one-year limitation period begins
running when direct review of the state conviction is completed or when the time for seeking direct
review has expired .. .

(citing 28 U.S.C. § 2244(d)(1)(A))); Sup. Ct. R. 13(1). The limitation

period began to run on Friday, October 18,2013, and ran for 251 days before Farmer filed his state
petition for a writ of habeas corpus with the Circuit Court on June 26, 2014.
The limitation period was stayed while the state habeas petition was pending with the
Circuit Court. See 28 U.S.C. § 2254(d)(2). The limitation period began to run again on November
21, 2017, when the Circuit Court denied his state habeas petition and ran for another 324 days
before Farmer filed his § 2254 Petition.3 Because the limitations period ran for well over a year,
Farmer’s § 2254 Petition is untimely under § 2244(d)(1)(A).
C.

Belated Commencement

Farmer is not entitled to a belated commencement of the limitation period under 28 U.S.C.
§ 2244(d)(1)(D) for Claim Four wherein he asserts that counsel failed to tell him about a plea offer
tendered by the prosecution prior to sentencing. This provision provides for a belated
commencement of the limitation period until “the date on which the factual predicate of the claim
or claims presented could have been discovered through the exercise of due diligence.” 28 U.S.C.

3 Because Farmer’s notice of appeal of the Circuit Court’s decision was not timely, Farmer
“lacks entitlement to statutory tolling for the period in which he pursued his untimely appeal.”
Ostrander v. Dir., Va. Dep't ofCorr., No. 3:13CV634, 2014 WL 2170067, at *3 (E.D. Va. May
23, 2014) (citing Escalante v. Watson, 488 F. App’x 694, 699 (4th Cir. 2012); Hines v. Johnson,
No. 2:08cvl02, 2009 WL 210716, at *2 (E.D. Va. Jan. 28, 2009); Christian v. Baskerville, 232 F.
Supp. 2d 605, 607 (E.D. Va. 2001).
4

Case 3:18-cv-00715-JAG-RCY Document 13 Filed 07/23/19 Page 5 of 5 PagelD# 139

§ 2244(d)(1)(D). The record reflects that Farmer knew of his attorney’s failure to inform him of
the plea offer in 2011, well before his conviction became final under 28 U.S.C. § 2244(d)(1)(A).
Petition for a Writ of Habeas Corpus Exs. 2,3, Farmer v. Barksdale, No. CL14-2586 (Va. Cir. Ct.
filed June 26,2014).
Accordingly, the statute of limitations bars Farmer’s § 2254 Petition unless Farmer
demonstrates entitlement to some equitable exception to the limitation period. See McQuiggin v.
Perkins, 569 U.S. 383, 386 (2013) (explaining that “actual innocence, if proved, serves as a
gateway through which a petitioner may pass whether the impediment is a procedural bar... or...
expiration of the statute of limitations”). Although Farmer mentions various legal principles in his
Response, {see, e.g., ECF No. 10, at 22-26), he fails to tender any new reliable evidence of
innocence or otherwise coherently demonstrate why his § 2254 Petition should be deemed timely
filed. See Hill v. Johnson, No. 3:09cv659, 2010 WL 5476755, at *5 (E.D. Va. Dec. 30, 2010)
(citing Weeks v. Bowersox, 119 F.3d 1342, 1352-53 (8th Cir. 1997); Feaster v. Beshears, 56 F.
Supp. 2d 600, 610 (D. Md. 1999)); see also Calderon v. Thompson, 523 U.S. 538, 559 (1998)
(citation omitted) (emphasizing that actual innocence means factual innocence and not just legal •
insufficiency). Accordingly, the § 2254 Petition is barred by the statute of limitations.
III.

CONCLUSION

For the foregoing reasons, Respondent’s Motion to Dismiss (ECF No. 7) will be
GRANTED. Farmer’s § 2254 Petition (ECF No. 1) will be DENIED. The action will be
DISMISSED. A certificated of appealability will be DENIED.
An appropriate Order shall accompany this Memorandum Opinion.

K) 2 Of)

Isl

Date:
Richmond, Vir

m

John A. Gibney, Jr.
United States District’Judge
5

